                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Dallas Field Office, Office of Audits
                                                                     3900 Karina Street, Room 224
                                                                     Denton, Texas 76208




                                    June 16, 2005


MEMORANDUM FOR:              Gary Jones
                             Acting Regional Director, FEMA Region VI



FROM:                        Tonda L. Hadley
                             Field Office Director

SUBJECT:                     Management Issues Identified During the Audit of Texas’ Compliance
                              With Disaster Assistance Program’s Requirements
                             Audit Report Number DD-07-05

On July 30, 2004, the Office of Inspector General (OIG) forwarded to you the final performance
audit report on Texas’ Compliance with Disaster Assistance Program’s Requirements (Audit Report
Number DD-11-04). The primary objective of that audit was to determine the effectiveness of
Texas’ Division of Emergency Management’s (TDEM’s) administration and management of disaster
assistance programs authorized by the Robert T. Stafford Disaster Relief and Emergency Assistance
Act and applicable federal regulations.

The audit, accomplished by Foxx & Company, an independent accounting firm under contract with
the OIG, was performed under the authority of the Inspector General Act of 1978, as amended,
according to generally accepted government auditing standards. The audit included review of
Federal Emergency Management Agency (FEMA) files and TDEM project files, accounting records,
and correspondence. The auditors also interviewed appropriate FEMA and TDEM personnel and
assessed problems that Region VI encountered in administering grant oversight. The audit report
identified certain noncompliance situations and weaknesses in internal controls, but concluded that
the State of Texas, for the most part, had effectively managed FEMA disaster assistance program
funds in accordance with federal requirements.
                                       RESULTS OF AUDIT

During the audit, we identified four additional conditions that require your attention. However,
because those conditions did not relate to TDEM’s performance, we did not include them in the
audit report.

Specifically, FEMA Region VI:

   (1) Did not properly prepare, review, and approve Requests for Assistance (RFAs) for one
       disaster,

   (2) Improperly waived the requirement for Public Assistance (PA) Quarterly Progress Reports,

   (3) Gave improper guidance on reporting the non-federal shares of PA project costs, and

   (4) Did not aggressively pursue recovery of duplicate benefits awarded to Individual and Family
       Grant (IFG) recipients.

Finding A: Preparation, Review, and Approval of RFAs

Region VI prepared and approved 19 RFAs for Disaster No. 1425. The audit showed that the RFAs
did not always include the following:

   •   Detailed descriptions of the requested assistance, the reason the assistance was needed, or
       whether the assistance had been requested by the State.

   •   The basis for the estimated costs of the assistance requested. In addition, subsequent
       deobligations and decreases in the originally estimated costs of the assistance provided were
       not explained or supported.

   •   A justification for increasing the cost of the assistance provided without changing the date
       the work was to be completed (one RFA).

FEMA Region VI officials said (without identifying specific RFAs) that they had concerns about the
classification of a number of the RFAs. However, the officials said they were “over ruled” by FEMA
Headquarters. All of the RFAs were classified as Federal Operations Support assignments and were
100 percent federally funded. We requested, but were not provided, documentation to support the
concerns expressed by the Regional Office officials.

We requested from FEMA officials at the Disaster Finance Center and the Regional Office
information on the criteria used to classify the RFAs as Federal Operation Support versus Direct
Federal Assistance (DFA) or Technical Assistance. These officials said that FEMA did not have
criteria for classifying RFAs as Federal Operation Support.

Because of the lack of established criteria, we could not evaluate the basis for classifying RFAs as
Federal Operations Support without cost sharing. If criteria had existed, and the assistance requested
had been appropriately described, some of the RFAs might have been more appropriately classified


                                                  2
as Direct Federal Assistance assignments, in which case the State would have shared the cost (25
percent) of federal assistance.

       Recommendation:

We recommended that the FEMA Regional Director, Region VI, establish criteria to govern mission
assignment activities to help ensure that Requests for Assistance are properly prepared, classified,
supported, reviewed, approved, and closed in a timely manner.

       FEMA Region VI Management’s Response

Management is aware that the lack of criteria for RFAs, now referred to as mission assignments
(MAs), might be confusing to those unfamiliar with MAs in the disaster arena. For that reason,
FEMA has undertaken a “massive makeover” of the MA process in recent years to improve the
delivery of MAs. These efforts include developing guidelines, standard operating procedures,
checklists, and a standardized training program. Management also provided information on each of
the 19 RFAs, stating that all of the requests “were made by FEMA to provide a service to FEMA and
were not requested by the State of Texas.”

       OIG’s Additional Comment

The actions taken by management appear adequate to resolve and close the recommendation. We
also accept management’s statements that FEMA, rather than the State, requested the mission
assignments and therefore properly classified them as Federal Operations Support assignments
funded with 100 percent federal funds.

Finding B: Waivers of the Requirement for PA Quarterly Progress Reports

Region VI approved requests from the State to waive the PA quarterly reporting requirement for 7 of
the 20 quarters for Fiscal Years 1998 through 2002. The State’s justifications for the waivers were
that TDEM staff could not prepare the required reports because of the workloads caused by newly
declared disasters.

According to 44 CFR 206.204 (f), quarterly progress reports will be submitted by the grantee to the
Regional Director. The FEMA regulations did not provide for Regional Directors to waive this
requirement.

Although FEMA Region VI waived the reporting requirements, we do not believe Region VI was
authorized to approve TDEM’s waiver requests. In addition, Region VI officials expressed concern
that they did not know the status of approved PA projects. Adequately prepared quarterly progress
reports would have provided Region officials with the status of PA projects.

       Recommendation:

We recommended that the FEMA Regional Director, Region VI, establish a policy that future
requests from states to waive reporting requirements will not be approved.



                                                 3
       FEMA Region VI Management’s Response

Management concurred with this recommendation, stating that its current practice is to follow
federal regulations and guidelines. Management conceded that, while the Region may grant a
justified request to extend a due date, it does not have the right to waive reporting requirements.

       OIG’s Additional Comment

The actions taken by management appear adequate to resolve and close the recommendation.

Finding C: Guidance on Reporting the Non-Federal Shares of PA Project Costs

TDEM was not reporting the correct non-federal share for large PA projects on its Financial Status
Reports (FSRs) submitted to FEMA Region VI. This condition existed because Region VI provided
inappropriate guidance to TDEM on reporting the non-federal cost share for PA large projects. In
July 1999, FEMA Headquarters and Regional Office officials visited Texas to assist the State in
improving TDEM’s reporting of the non-federal share. According to FEMA Regional Office
officials, they wanted TDEM to track the non-federal expenditures and to report the correct amounts
on the FSRs.

However, because the State did not want to track the non-federal share, FEMA and State officials
reached a compromise that was documented in an August 1999 memorandum to TDEM. The
compromise was that the State would report the non-federal share when the subgrantee submitted a
P.4 Certification and actual reviewed expenditures could be reported. According to Regional Office
officials, they were not aware that more than one project is usually included on a P.4 Certification.
As a result, the completion date for the last project listed on a P.4 might be a much later date than
other projects on the P.4. We noted that some P.4s included projects completed nearly 4 years before
the last project listed on the P.4 was completed. FEMA Regional Office officials said that they did
not intend to delay the State’s reporting of the non-federal share.

We believe that the guidance provided should be reviewed by the Regional Office and modified, as
appropriate, to ensure that FEMA’s intentions concerning non-federal share reporting is clearly
conveyed to TDEM. We also believe that the Regional Office should not allow projects to be
completed before the non-federal share is reported. FEMA’s Guide to Managing Disaster Grants
states that FSRs are the official source for cost-sharing information. In addition, FEMA’s Standard
Operating Procedures for Reconciling Financial Status Reports states that a review of the FSR gives
FEMA up-to-date information on the grantee’s expenditures and on whether they are meeting their
cost-share requirements.

       Recommendation:

We recommended that the FEMA Regional Director, Region VI, review the August 1999 guidance
provided to TDEM and modify it, as necessary, to reflect FEMA’s financial reporting objectives.




                                                   4
           FEMA Region VI Management’s Response

Management concurred with this recommendation, stating that the Region has corrected the
procedure and is “now requiring the State to report the non-federal share of Public Assistance
grants.”

           OIG’s Additional Comment

The actions taken by management appear adequate to resolve and close the recommendation.

Finding D: Recovery of Duplicate Benefits Awarded to IFG Recipients

FEMA needs to recover $1,835,207 of overpayments resulting from its “auto-determination” process
and FEMA’s National Processing Service Center’s failure to notify the State that a number of
Disaster 13791 IFG applications were duplicate applications. The State’s share of the overpayment
was $458,802. As of May 2003, FEMA had recovered only about $42,000 of the $1,835,207
overpayment. FEMA did not have procedures for returning the State’s share of overpayments. In
addition, FEMA had not determined whether the agency’s policy of assuming full responsibility for
these types of errors would apply in this situation. As of the completion of the audit, FEMA had not
refunded the State’s share of the overpayments or the State’s share of the amount recovered by
FEMA.

Although FEMA initiated procedures to recover the duplicate payments, it had recovered only about
$42,000 as of May 2003. FEMA’s correspondence to IFG recipients stated that the payment was
made in error through no fault of the recipient. The correspondence also stated that the recipient
should inform FEMA if the funds could not be returned or if they did not believe the funds should be
returned.

FEMA’s failure to notify the State of essential applicant information was the underlying cause of the
duplicate payments. Therefore, we believe that FEMA and the State should reach agreement on the
ultimate financial implications of $458,802 paid by the State for the duplicate payments.

           Recommendation:

We recommended that the FEMA Regional Director, Region VI, consult with FEMA Headquarters
and the State Coordinator for Texas to:

               •   Review the process currently underway to recover the $1,835,207 in duplicate
                   payments made to IFG recipients and

               •   Reach agreement with the State on the amount of the overpayment that will be
                   refunded to the State.




1
    Disaster No. 1379 was declared on June 9, 2001.

                                                      5
       FEMA Region VI Management’s Response

Management concurred with the finding and, in its initial response, stated that the initial problem
and the subsequent recovery of duplicate benefits were the jurisdiction of FEMA Headquarters, the
National Processing Service Center, and the Disaster Finance Center. In a supplemental response to
this finding, dated March 21, 2005, FEMA Region VI stated, “we have consulted with FEMA
Headquarters and they are recovering the overpayments.” The supplemental response included two
memorandums evidencing the fact that FEMA had completed both of the recommendations related
to this finding.

       OIG’s Additional Comment

The actions taken by management appear adequate to resolve and close the recommendation.


             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the four management issues with FEMA Region VI officials on September 22, 2004.
In general, these officials agreed with our findings and recommendations. We have summarized their
comments in the body of the report and have included the Region’s two written responses to the
draft report in their entirety as Attachments 1 and 2. We consider all of the recommendations to be
resolved and closed; therefore, no additional response is required.

We appreciate the time and effort the Region took to respond to and resolve our recommendations.
Should you have any questions concerning this report, please contact Stuart Weibel or me at (940)
891-8900.




                                                 6
    Attachment 1




7
8
9
10
     Attachment 2




11
12
13
14
